RECORD:

Doc. 2L3; Judicial Notice

2020

wr

70

SupnsME Counr oF WrscoNsrN
CASE

No.

:

COMPIETE TITLE:

20rsAP2442-D

In the Matter of Disciplinary Proceedings
Against Wendy Al-ison Nora, Attorney at Law:

Office of Lawyer Regulation,
Complainant -Cros s -Appe1
Respondent,
V.
Wendy Al-ison Nora,
Respondent -Appe

1

lant-

lant -Cros s -Respondent

DISCIPL]NARY PROCEEDINGS AGAINST
OPrNroN FrLED:
SUBM]TTED oN BR]EFS:
ORAL ARGUMENT:

July L4,

NORA

2020

October 28,

201,9

SoURcE oF APPEA],:
COURT:
COUNTY:

JUDGE:

JUSTICES

:

Per Curiam.
NoT PARTICIPATING:

ATToRNEYS:

For the respondent-appel lant-cros s -respondent, there were
briefs filed by Wendy Al-ison Nora and Access Legal Services,
Minneapolis, Minnesota. There was an oral argument by Wendy
Al-ison Nora.
For the complainant-respondent-cross-appe11ant, there were
briefs filed by Pauf W. Schwarzenbart and Office of Lawyer
Regulation, Madison. There was an oraf argument by Paul- W.
Schwarzenbart.

2020 wr 70
NOTTCE

This opinion is subject to further
The final
editing and modification.
version will appeat in the bound
volume of the official leports.

No.

20I5AP2442-D

IN

STATE OF WISCONSIN

SUPREME COURT

In the Matter of DisciPlinary Proceedings
Against lilendy ALison Nora, Attorney at Law:
Office of Lawyer Regulation,

FILED

Complainant- Cros s -Appel I ant-Re sPondent,

.lul,

v
Wendy

,

2020

Sheila T. Reiff
Cferk of Supreme Court

Alison Nora,

Re

L4

spondent-Appe I I ant- Cro s s -ResPondent

ATTORNEY

disciplinary

proceeding.

Attorneyt s

License

suspended.

911 PER CURIAM. Attorney Wendy Alison Nora appeals from
various interlocutory orders and a final- report j-ssued by the
referee, Attorney James Winiarski.

Attorney Nora challenges the

conduct of the proceeding by the Office
(OLR) and Referee Winiarski,

of

fact

and his

legal

of Lawyer Regulation

as well- as the referee's
conclusions

that

she engaged in

professional misconduct as alleged in Counts 2,3,
OLR'

s

second amended compl-aint .

findings

and 5 of the

She al-so challenges his

No.

recommendation that

this

20L5AP2442-D

should suspend her license

court

to

practice l-aw in Wisconsin for a period of two years.
9.2
legal

The OLR has f il-ed a cross-appeal

f

rom the referee's

Counts 1 and 4 of its

conclusions that

second

amended

complaint shoul-d be dismissed on due process grounds because
those counts failed to specify which subsections of Supreme
Court Rule (SCR) 2023.1(a) Attorney Nora's conduct had vj-ol-ated.
113 We reject Attorney Nora's arguments on appeal and
conclude that
Professional

the

OLR proved violations

of

Conduct for Attorneys on all- five

the

Rules of

counts of the

second amended compJ-aint. We do not agree wi-th the referee's
conclusion that Counts l- and 4 shoul-d be dismissed on due
process
forfeited

grounds because we determj-ne that
any due process notice

before the referee.

Attorney

challenge by not raising

Nora

it.

Had she raised the issue in a timely manner

before the referee, the OLR coul-d have amended its complaint to
Moreover' the
more fully specify the subsections at issue.
OLR's complaints did specify the particular

constituted violations
the allegations

Attorney Nora had notice of

against her.

114 We further
discipline

of the rule.

actions by her that

conclude that

the appropriate

to i-mpose upon Attorney Nora for

misconduct is a further

level

of

her professional

two-year suspension of her .license to

2

No.

Given the nature of her misconduct

practice law in this state.l
at issue in this

proceedj-ng, we do not require her to pay any

We do, however, require

restitution.

reinstatement

seeks the

20I5AP2442-D

of

her

that

license,

if

Attorney Nora

her

reinstatement

must allege that she has made a good faith effort to
pay al-l- outstanding amounts that she personally owes as a resul-t
of sanction orders imposed by any court, and she must prove that

petition

as one of the conditions of reinstatement.
915 Because the OLR has requested that. we noL impose the
costs of this proceeding on Attorney Norar we do not. impose any

good faith

effort

costs.
Attorney Nora was admitted to the practice of law in
this state in June 1915. She was also licensed to practice law
in the state of Minnesota in 1985. She most recently practiced
fl5

law under the

name Access Legal

Services

in

Minneapolis,

Minnesota.

917 Attorney Nora has been the subj ect of prof essionaldiscipline in this state on two prior occasions. In L993 this
court suspended Attorney Nora I s license to practice law in
Wj-scons

by

j-n f or 30

the

r ds discipline reciprocal to that imposed
.j.n re Dascr linar
Supreme Court of Mj-nnesota
days

r Attorney Norars l-icense to practice law in Wisconsin is
currently suspended as discipline for professional misconduct in
In re Disciplinarv
a previous disciplinary proceeding
ainst Nora 20LB WI 23, 380 Wis. 2d 311-, 909
Proceedin
Attorney Nora's license is al-so
N.W.2d 155 (Nora II).
suspended due to her fail-ure to pay mandatory
administratively
bar dues and her failure to file a trust account certification.
Q

3

No.

2QI5AP2442-D

Proceedings Against Nora, Lf3 Wis.2d,660, 495 N.W.2d 99 (1993)

(Nora

I)

.

The misconduct that. resul-ted in that suspension

involved making misrepresentations concerning the reopening and
of a bank, failing to adequately investigate the
capitalization
person who was to provide

capital-

to

the bank, improperly

authori zing the issuance of cashj-er checks by the bank, bringing
a frivol-ous claim against a bank, transferring' assets of her
Minnesota law partnership in an attempt t.o insulate those assets
primarily
as a delay
bringlng litigation
from collection,
tactic,
law.

by exi-sting
and asserting a legal theory not justified
Nora I, L13 Wis. 2d at 660-6L; see also In re Disciplinarv

Actj-on Against Nora, 450 N.W.2d 328 (Minn. 1990)

.

glg In 2OI8 this court suspended Attorney Nora's license
to pract.ice l-aw in this stat.e f or a period of one year,
effective April 30, 20L8. Nora II, 380 Wis. 2d 31,1', 1142. In
court determined that the OLR had proven four
counts of professional- misconducL arising out of her actions in
defending a foreclosure action against her own property and in
that

case this

three federal

bringing

civil

actions agaj-nst the state court

judge presiding over the forecfosure action and against opposing
Specif ica11y, this court
counsef j-n the f oreclosure act.ion.
concluded that Attorney Nora had made a fal-se statement of
fact to a tribunal-,

material
fd.,

L21

.

in violation

of SCR 20:3.3 (a) (1) .

We also determined that in each of the three federal

actions, Attorney Nora had knowingly advanced claims that lacked
a valid legal basis and had pursued the cl-aims merely to harass
4

No.

fd., lt1t29 and 30 (finding three

or maliciously injure another.
violati-ons of SCR 20:3.1(a) ) .
PROCEDURAL HISTORY OF

THIS

20I5AP2442-D

PROCEEDING

disciplinary
Some procedural facts about. this
proceeding are necessary for an understanding of certain legal
conclusions by the referee and of certain issues on appeal.
!|10 On November 30, 2015, the oLR filed its origj-nal
complaint in this proceedi-nq, which alleged five counts of
professional mi-sconduct by Attorney Nora arising out of two
client representations. Counts 1-3 arose out of Attorney Nora's
actions connected to her representation of Sheila Spencer (the
Count 1 alleged t.hat Attorney Nora had
Spencer matter) .
violated Supreme Court Rul-e (SCR) 20:3.1(a) as follows:
tl9

By removing a state courL foreclosure matter to the
when
fed.eral court after four years of litigation
there was no colorable basis for federal ;urisdiction,
and, by filing a frivolous motion to reconsider the
order remandi_ng the matter back to the state court,
lAttorney] Nora violated SCR 20:3.1 (a) .
Count 2 alleged that. by filing a frivolous appeal on behalf of
and herself personally when she was not a party
and by engaging in an ongoing pattern of
to the lit.igation
officers and to
conduct to harass other parties and ludicial

both her client

delay the proceedings, Attorney Nora viofated SCR 20:3.2. Count
3 alleged that by engaging in an ongoing pattern of conduct to
harass other parties

and judicial

proceedings, Attorney Nora violated
40.I5t which is enforced via

SCR
5

officers

and to delay the

the Attorneyrs Oath in

20:8.4 (g) .

SCR

No.

9111 Counts 4-5 arose

out

Attorney

Nora's

actions

of Roger and Desa Rinaldi

connected to her representation

(the

Count It alleged that Attorney

Count 4t like

Rinaldi matter).

of

2015AP2442-D

SCR 20:3. 1 (a)

matter

as

. by filing a motion to intervene and a motion for
from the Court I s prior orders pursuant to
relief
2
F. R. C. P.
60 (b) (2) , which motions were f ound to be
frivolous,
after the U.S. Dist.rict Court had warned
fAttorney] Nora that any further frivolous submisslons
woufd result in an award of sancti-ons, [Attorney] Nora
violated SCR 20:3.1 (a) .
Count 5 tracked Count 2 tn that it. alleged that by filing

a

Nora had violated

in

the Rinaldi

fol-l-ows:

motj-on to intervene personally and a motion for relief

federal district

court's

prior

order, both of which were found

to be frj-volous, Attorney Nora viol-ated
1tI2 Attorney Nora filed
original

from the

SCR

20:3.2.

combined motions to dismiss the

complaj-nt on several- grounds.

decided these motions, the OLR fil-ed a first

Before t.he referee
amended complaint,

which did not change any of the counts alleged against At.torney
Nora, buL simply corrected
original

complaint.

some factual- allegations

The referee's

in

the

subsequent scheduling order

provided that Attorney Nora's pending mot.ions woul-d appf y to the
first

amended complaint and permitted Attorney Nora to fil-e any

additional

motions regarding the first

amended complai-nt within

a "supplement" to her motions to
of a proposed modified
dismiss, as well as a "notice of filing"
20 days.

Attorney Nora filed

z This is a citation
Procedure

abbreviation for "Federal- Rule of Civil

il

6

No.

20I5AP2442-D

excluded facts Attorney Nora contended

amended complaint that

were fal-se.
9113 Attorney Nora's motions did not assert that either the

original

amended complaint violated

complai-nt or the first.

due process rights

her

because Counts 1 and 4 of those complaints

fail-ed to specify the subsection of SCR 2023.1(a) that Attorney
Nora had violated.
9114 On April

16, 2016, the referee denied Attorney Norars

motions to dismiss the original

and first.

amended complaint.

gave Attorney Nora 20 days in which to file
first

He

an answer to the

amended complaint.

tI15 On May 20, 201'5, Attorney Nora filed a "Corrected
Motion to Dismiss and Answer."3 Attorney Nora asserts on appeal
that in a subpart of this document responding to Count. 4 of the
first
amended complaint (paragraph 90), she alleged that
paragraph 90 of t.he first
which subsection of
Rinaldi

matter.

made a similar

amended complaint failed

SCR 20:3.1 (a)

to specify

she had violated

in

the

She does noL asserL on appeal that she ever
allegation

regarding Count 1.

Furt.her, her

reference to paragraph 90 in this document never alleged that
the OLR I s f a j-lure to specif y the subsection of SCR 20:3. 1 (a)
constituted a due process violation.
3 A few days before fi-ling

this motion and answer, Attorney
(1)
a motion for damages pursuant
Nora filed two other motions:
to Wis. Stat. S 894.044 and (2) a motion to disqualify Attorney
Paul- Schwarzenbart from representing the OLR in this proceedinq(a11eged1y due to his confl-ict of interest as a material witness
to crimes supposedly committed in Nora II) .
1

No.

201-5AP2442-D

5 On June 3, 20L6, the OLR filed a motion seeking leave
to file a second amended complaint. The purpose of the second
amended complaint was to correct two mi-nor errors in the amended
fl1

of the wrong circuit

complaint, including the list.ing

court case

number for the foreclosure action against Sheila Spencer.

20L6, the referee issued another order

1117 On August I,

Nora's pending motions and granted the

denied Attorney

that

subsequently fil-ed

The

a second amended complaint.

fil-e

OLR's motion to

a second amended complaint,

OLR

as permitted.

The second amended complaint did not change t.he nature of the
counts alleged against Attorney Nora, nor the specific actions
by

her

that

violated

all-egedly

the

specified

Rules

of

Professional Conduct for Attorneys.
911B Ultimately,

af

ter

some f urther

proceedi-ngs in

the

a "notice of filing" of four different
versions of a revised answer to the second amended complaj-nt.
Attorney Nora did not allege t.hat the lack of specified
subsections in CounLs 1 and 4 violat.ed her due process right to
case, Attorney Nora filed

notice of the charges against her.
1119 After the referee granted a series

of motions by

Attorney Nora and her co-counsel to adjourn the evidentiary
hearing, the referee conducted the disciplinary hearing in this
matter over four days in March 2071. The referee issued a postt.he OLR to

hearing order directing

f

il-e a post-hearing brief

of the hearing. transcript and
45 days from the filing
Attorney Nora to file her post-hearing brief within 45 days
within
after

the OLR filed

its

brief.
B

After

the referee

granted

No.

20L5AP2442-D

another series of extension motions, the post-hearing briefinq
was completed in February 201,8. Attorney Nora's post-hearing
brief did not al]ege that the reference to SCR 20:3.1(a) rather
than to one or more subsections of that rule violated her due
process rights.
!,20 whil_e working on his report, the referee became
concerned with whether the lack of specification in Counts 1 and
4 of the applicable subsection (s) of SCR 20:3.1 (a) violated
Attorney Nora's due process rights. He ordered the parties to
submit supplemental post-hearing brlefs on this issue, which
they did.
FINDINGS OF FACT AITD CONCLUSIONS OF LAW CONCERNING COI'NTS 1-3

1t21, The following facts were found by the referee in his

report.

fil-ed a foreclosure action in the
FNMC V
Wood County circuit court against Sheila Spencer.
Spencer, Wood CountY Case No. 2009CV283 (the Spencer Wood County
{122 In April 2009,

Case)

.

attorney.

FNMC

Ms. Spencer was initially

represented by another

That attorney was allowed to withdraw in April

20L2,

and Att.orney Nora f iled a notice of appearance on behal-f of
appeared at a
Spencer in May 2012. Attorney Nora initially

Ms.
May

23, 2OL2 hearing that had been scheduled as a sunrmary judgment
Judge
hearing, and asked for a postponement of the hearing.
Gregory Potter,

who was presiding

over the

case,

granted

Attorney Nora's requested postponement and directed her to file
a tist of issues that she believed needed to be resolved by June

29,

2012.
9

No.

20I5AP2442-D

Attorney Nora did not f il-e the list of issues as
ordered. on June 23, 2012, she filed a "Notice of continuing
she filed an amended
objection to Further Proceedings. "
"Cont.inuing Notice" on June 25, 2072. In these "Continuing
Noticesr" she alleged that Gray and Associates, s.c. (the Gray
Firm) had made multiple fraudul-ent filings in t.he Spencer Wood
1123

County Case. She also alleged that she had not been served with
a copy of a proposed order that Judge Potter had signed on June

She cl-aimed that the lack of service of the draft
order was part of "an actual- pattern and practice by Judge
Potter and Ithe Gray Firm], acting in concert, to effectuate a
fraud.ul-ent foreclosure against sheila M. spencer and her home."
72, 20L2.

Attorney

Nora claimed that

Judge Pott.er's

signing

of

the

i-mproper ex parte order meant that the "entire record
of the proceedings must be reviewed in light of the apparent
between Judge potter and Ithe Gray Firm] . "
co]laboration

allegedly

accused Judge Potter of "manipulatIing]"
both the record and the foreclosure action generally to assist
the Gray Firm in depriving Ms. Spencer of a chance to defend

Attorney Nora further

against the foreclosure:
The manipulation of t.he Transcript to remove some of
discloses a
the most damning evidence of bias
that Judge Potter is compTicit in
whole new issue:
the manipuJ.ation of the proceedings and of the reeotd(Emphasis added.

)

1t24 On June 2J, 20L2, Attorney Nora filed an extension
of Nonreceipt of Motion for Proposed
moti_on and an "Affidavit
Attorney Nora claimed
Order and Final Order." In the affidavit,
10

No.

20L5AP2442-D

that she had not received the order dated June 12, 201,2, and
that she had been shocked to find that the court had entered an
order resulting

from the May 23rd hearing without a motion for

entry of such an order being served on her.
further stated that the court's clerk had told

Attorney Nora

that someone from the Gray Firm had sent a letter

and a proposed

order to Judge Potter.

The affidavit

Attorney Nora did not contact. the Gray

Firm to obtain a copy of the letter to see if she had been
that the
copied on it; j-nstead, she alleged in her affidavit
and enclosed

letter

draft

order

had been an

"ex

parte

communication with the Court. "
1125 The very next day (June 28, 20L2) Attorney Nora filed

Judge Potter for "repeatedly engaging in
ex parte communications and entering ex parte

a motion to disqualify
or facilitating
orders.'r

In the motion Attorney Nora described the Spencer

County Case as a "mockery of
a copy of the Gray Firm's
The letter

Attorney Nora.
explain

and as "misbegiot.ten

Attorney Nora acknowledged that she had received

proceedings. "

client.

j ustice"

l-etter

and draft

order from her

showed t.hat a carbon copy had been sent to

The referee found that Attorney Nora could not

how Judge Pot.ter would have known that

receive a copy of the letter
on the letter

Wood

she did not

and draft order when she was

shown

as receiving a carbon copy.

1t26 Attorney Nora did not stop with accusj-ng Judge Potter
of engaging in ex parte communications in t.his one instance; she
alleged that Judge Potter and the Gray Firm had engaged in
multiple

instances

of

ex parte
11

communications and ex parte

No.

20I5AP2442-D

orders prior to her appearance in the case' 4 although Attorney
Nora had no first.hand knowledge of the other instances she
aIleged. Attorney Nora went So far as to assert that " [a]
reasonabTe inference arises from these facts that iludge Gregoty
,7. potter has coTLuded with GR:AY e ASSOCIATES, LLP to circumvent
proper practice and ptocedute by engaging in and faciTitatinq ex
parte communications by which ordets have been entered by the
court.,, (Emphasis added.) Attorney Nora demanded that. Judge
Potter recuse himsel-f immediately'
g,21 At a hearing on August 8, 2012, Judge Potter denied
Attorney Nora's recusal motion. on August 13, 2012, Attorney
Nora finally filed t.he list. of issues that. she had been ordered
to file by June 29, 2012. Her list of issues again repeated her
allegation t.hat Judge Potter and the Gray Firm had engaged in
improper ex parte communications '
!,28 On October 3, 20L2, Attorney James Carrig first
which caused Attorney Nora to file a
appeared for the plaintiff,
motion to strike his appearance. Judge Potter held a hearing on
Attorney Norars moLion and on whether PNC Bank should be
Foll-owing the
in the action.
substituted as the plaintiff
hearing, Attorney Carrig fil-ed a formal- motion to "ratify the
by an empl0yee of the Gray Firm that was
filed in this proceeding stated that on the date of one such
alleged ex parte communication, Ms. spencer had been served with
The court record
a copy of the notice of motion and motion.
shows that on the other occasions of alleged ex parte
communications, the letters and enclosed documents were copied
to Ms . SPencer.
4 An affidavit

L2

No.

or

action

Ultimately,

party

20I5AP2442-D

plaintiff.

substitute

PNC Bank as

the circuit

court granted the motion to substitute

the

PNC Bank and set a heari-ng date of March 18, 2013, for

"

the

summary judgment motion (which had

hearing on the plaintiff's

been pendlng since before Attorney Nora had joined the case)
1129 Attorney Nora responded to this

.

development by filing

a notice of removal of the action to the United States District
Court for the Western District of Wisconsin on January 10, 20L3.
Nora alleged

Attorney
u. s . c.

that

t.he removal was proper under

28

, 1332, 1334 t and 1349 (i . e. , both diversit.y and
PNC Bank filed a motion for
question jurisdiction) .

ss

federal

1331

remand, which the district

court, Judg'e Barbara Crabb presiding,

granted.

Judge Crabb also granted an award of attorney fees and

costs to

PNC Bank (apparently

Att.orney Nora)

against Ms. Spencer' but not

.

, 20L3, Attorney Nora f il-ed a motion f or
Attorney Nora
reconsiderati-on of Judge Crabb's remand order.
claimed in thls disciplinary proceeding that she had not sought
113

0 On April

B

reconsid.eration of the remand order, but only of the award of
The referee found, however, that the
attorney fees and costs.
motion was not l-imited to addressing the award
of costs and fees, noting that 4L of the 43 paragraphs in
Attorney Nora's reconsideration motion asserted that Judge Crabb
reconsideration

Indeed'
had erred in remanding the case back to state court.
the prayer for relief j-n the reconsideration motion "request Ied]

that the court reconsider the Order remandinq this case to state
court entered on March 25, 2013 for its clear errors of l-aw in
13

No.

20I5AP2442-D

failing to acknowledge and exercise its original jurisdiction
il

9131 Judge

holding

reconsideration,
jurisdiction

the

that

to reconsider its

the

denied

ultimately

crabb

court

district

remand order.

motion

for

lacked

Judge crabb also

hel-d that because spencer had not had "an objectively reasonable
argument supporting federal jurisdiction, " it was appropriate to

had incurred in moving to remand the
In other words, Judge crabb found the remova] to be
case.
a second motion for
Attorney Nora filed
frivol-ous.
reconslderation, which rehashed the same arguments and included

award pNC Bank the fees it

the federal

a statement that

second reconsideration
awarded PNC Bank its

court "is

district

wrong ' "

The

Judge Crabb
motion was also denied'
costs and fees in opposing the two

reconsideration motions. Although the referee's findings do not
court entered
it. appears that t.he district
say so explicitly,
judgment for the fees and cost.s against Ms. spencer, not against
Attorney Nora. The total of the cost judgment was $4,928'41 in
favor of

PNC Bank.

1132 Attorney

crabb's

orders

reconsideration

Nora filed
granting

motions.

a notice
remand

of appeal from Judge

and

rn the notice

denying

her

of appeal and in

two
an

Attorney Nora identified herself as a defendantand in her capacity as counsel for
appellant "individually
Sheita M. Spencer." The referee found that Attorney Nora had
not filed any d.ocument seeking to be made a party to the case
and amended notices of appeal ' He
before she filed her initial

amended notice,

I4

No.

20I5AP2442-D

afso explicitly found that " IAttorney] Nora knew that remand
orders were not appealabl-e under Titl-e 28 of the united states
Code. "

1133 The United states court of Appeals for the seventh

circuit issued an order directing Attorney Nora and her client
to fil-e a memorandum explaining why the appeal should not be
In her memorandum, Attorney
dismissed for lack of jurisdiction.
Nora claimed that she had "the right and indeed the obligation
to appear in her individual- name and capacity as an aggrieved
party" because she was the "target" of t.he sanctions imposed by
the district courL and she was "ethically obligated to indemnify
spencer f or t.he cosL and fee judgment. " Nora also incl-uded a
statement that "Judge crabb has engaged in a campaign of libe|
against Nora which wiTI be addtessed in the appropriate fora."
(Emphasis added.

)

$34 Before the Seventh Circuit could rul-e, however,
Attorney Nora filed a bankruptcy petition on behalf of Ms '
spencer, which delayed briefing on the spencer appeal for a
little less than five months. ultimately, on August t3, 2014,
the Seventh Circuit issued a decision dismissing the appeal
filed by Attorney Nora, concluding that there had been "no
or
objectively reasonable basis for federal jurisdiction
removal,' and that the appeal had been f rj-vol-ous. s The seventh
ultimately awarded PNC Bank over
attorneY fees and costs in responding to the

s The Seventh Circuit

$25,000 in
frivolous apPeal.

15

No.

20I5AP2442-D

ordered Attorney Nora to show cause why she should not
be sanctioned for pursuing a frivol-ous appeal.
response to the Seventh
$35 Attorney Nora filed an initial
Circuit

order to show cause just

Circuit's

response,

initial

In her

two days fater.

she cl-aimed that

the

Seventh Circuit's

decision contained "numerous factual findings for which there is
no evidence in the record, for which judiciat notice was not
properly taken and which are offered to be proved to be clearly
Attorney Nora also rehashed her arguments regarding
removaf and repeated her claim t.hat Judge Crabb had libeled her
by removing the seal from her medical records in a completely
erroneous. "

Indeed, Attorney Nora claimed that Judge Crabb
was in contempt of a Seventh Circuit order by removing the seaf.6
ql3G The Seventh Circuit ordered Attorney Nora to fil-e "one
unrelated case.

proper response" to four questions listed
of complying with the Seventh Circuit's

in the order.
order,

Instead

Attorney Nora

rehearing en banc, in which she aqain
repeated all of the removal/remand arguments she had made
Attorney Nora
before. The Seventh Circuit denied the petit.ion.
then moved for a stay so she coul-d file a certiorarj- petition in
a petition

filed

the

U.

for

S. Supreme Court,

certiorari

but

she never actually

filed

the

Petition.

6 The referee found from a copy of Judge Crabb's decision in

the other case, which was admitted into evidence in this
proceeding, that the basis for the ruling was that Attorney Nora
had faited to file the documents under seaf pursuant to an
existing protective order and had not moved to seal them.
T6

No.

20I5AP2442-D

$37 Despite the Seventh Circuit's directive to fil-e "one
responser'r on september 74, 2014, Attorney Nora fil-ed a doCumenL
entitl-ed "Partial Response to order to show cause." In that
document, she denied that she had accused Judge Potter and his
she
court reporter of "fraudulently manipulating transcripts."
also included a number of accusaLions against t'he Seventh
Specifically, she
Circuit and lower courts in the circuit.
sLated, ,,The bias of this paneT and many of the judges in this
circuit against homeowners' rights to be heard and defend their
is apparent in every disputed sentence of the 'findings'
in the panel's decision." (Emphasis added.) She afso asserted
that a number of the statements in the Seventh circuit's
decision were "false, " including that she had accused Judge
potLer, opposinq counsel, and the court clerk of colludj-ng to
conceal the contents of an order, that she had accused the court
reporter of intentionally manipulatinq a hearing transcrj-pt at
Judge Potter's direction, and that she had demanded that Judge
potter recuse himself. On Oct.ober lf , 2014, Attorney Nora filed
a motj-on for a continuance of the show cause hearing allegedly
due to medical reasons. The Seventh Circuit denied Attorney
Nora's motion for a continuance, but it allowed her to appear
for the hearing by speakerphone. Al-though she had asserted an
inability to appear due to medical reasons, Attorney Nora
homes

appeared in person for the october 28,20L4 show cause hearing'
ultimately, the seventh circuit imposed a $2,500 sanction on

Attorney Nora for frivolous and needlessly antagonistic filings '
fn its sanction order, the seventh circuit stated that Attorney
L't

No.

20L5AP2442-D

Nora had failed to comply with its order to limit hersel-f to
"one proper response" to the court's order to show cause. It
also described Attorney Nora's petition for rehearing en banc as
It stated that
"rehashing her frivolous appellat.e arguments. "
Attorney Nora had engaged in "conduct unbecoming a member of the
court's bar. rr It explained the basis for its sanction as
fol-1ows

:

Nora has repeatedly acted with needless antagonism
fn her
toward opposing counsel- and judicial officers.
has
refused
cause,
she
to
show
our
order
responses to
to back down from her accusat.ions of libel aqainst
fraud
and
civil
Judge Crabb and "actionable
She denies
racketeering" against opposing counsel.
altering
courL judge of
state
accusinq the
her
record
befies
deniaf
transcripts, but the
,' she not
only made the accusation but moved for substitution of
She afso now derides "thls
the judge on that basis.
judges
in this circuit" as being
panel and many of the
biased "against homeowners' right.s to be heard and
defend their homes. " This bandying about of serious
is
basis in law or fact
accusations without
sanctions.
warrants
and
unacceptable
9l3B On March 10, 2014, when the Spencer foreclosure action

was agaj-n pending in the Wood County circuit
Nora filed

a second motion to disqualify

court, At.torney

Judge Potter, which he

Judge Pott.er subsequently granted PNC Bank's
again denied.
summary judgment motion, entered a judgment of forecl-osure, and
dismissed Spencer's counterclaim.
the sheriff's

The circuit

safe of the forecfosed property.

court confirmed

Attorney

Nora

fil-ed appeals from both the judgment of forecl-osure and from the
In May 2016 the court of appeals
order confirming the sale.
affirmed the judgment of foreclosure and the confirmation order.
1B

No.

$39 The
misconduct
representing

arising

ouL

counts

three

OLR alleged

Attorney

of

professional
actions

Nora's

in

which addressed Attorney

MS. Spencer, most of

Nora's conduct in federal court.
that Attorney Nora had violated

of

20I5AP2442-D

In Count 1 the OLR alleged
scR 20:3.1 (a) by taking

actions:(1)removingtheforecfosureactiontofederalcourt
without a colorable basis for federal- jurisdiction,

and

two

(2)

motion to reconsider Judge Crabb's remand
The referee concluded that this count should be
ord"er.7
dismissed because Attorney Nora was deprived of due process when
the oLR's complaint.s failed to give her adequate notice of the
a frivol-ous

filing

misconduct with which she was charged by failing to specify the
subsection of scR 2O:3.1(a) that she had violated.s
$40 with respect to count. 2, the referee concluded that
the oLR had proven that Attorney Nora had violated SCR 20:3.2e by
a f rivolous appeal- on behal-f of her client and herself
f iling
and by engaging in an
when she was not a party to the lit.igation
ongoing pattern of conduct to harass other parties and judicial
officers

and to delay the proceedings

7 The operative

language of

'

count 1 is

set

forth

in

paragraph 10 above.

8 The referee acknowledged" that if this court concluded that
there was no due process violation, the OLR had proven by clear'
satisfactory and convincing evidence that the conduct described

in Count t had violated all three subsections of SCR 2023.1(a)'
Indeed, the referee said that' the evidence of viol-ations of all
three subsections was "overwhelming'"
g SCR 2023-2 Provi-des that " Ia] lawyer shall make reasonable
consistent with the interests of
efforts to exPedite litigation
the cl-ient. "
L9

No.

20L5AP2442-D

1141 The referee al-so determined that the OLR had proven

violation

Attorney's

the

of

enforceable via

SCR

Oath in

a

which is

SCR 40.I5t

20:8.4 (g) .10

found

L42 The referee

Nora had used

Attorney

that

accusations of misconduct against others as merely a standard
part

of the defense of a foreclosure

delay the action so that the client

could remain in the home for

He noted that in it.s sanction decision,

as long as possible.
the Seventh Circuit

to

specifically

action,

had found that

Attorney

Nora had

made

arguments with no reasonable expectatj-on of success and merely

for the purposes of delay, harassment, and "sheer obstinacy."
The

referee

similarly

representation,

"Ii]t

entrance i-nto that
foreclosure

concluded

that

in

the

Spencer

is cfear from the very beginning of her
case her goal was to delay a judgment of

as long as possible. "

The referee

found that

Attorney Nora knew that her attacks against Judge Potter

and

court personnel would "buy her more time" because the court
woui-d have to resolve her allegations of misconduct before it.
could return to the merits of the case.
FINDINGS OF FACT A}TD CONCLUSIONS OF LAVI CONCERNING COUNTS 4-5

1143 Counts 4-5 relate

the Rinaldis.

to Attorney Norars representation of

They had been the defendants in a forecl-osure

action brought by

HSBC

Bank (HSBC) in the Kenosha County circuit

court (Case No. 2009CV353 or the foreclosure action).

Attorney

profes sionaf
fS
SCR 20:B.4(g) provides that " [i]t
(q)
oath;
violate the attorneyrs
misconduct to:
10

il

20

No.

2015AP2442-D

Nora was not i-nvol-ved in that f orecl-osure action. HSBC was abl-e
to obtain a judgment of foreclosure and a dismissal of the
countercl-aims. Ul-timately, however, HSBC agreed to a
vacation of the judgment and dismissaf of the case when the
Rinaldis entered into a loan modification agreement.
Il44 In June 2017, after the dismissal of the foreclosure
Rinaldis'

the Rinaldis

action,

filed

a civil

action against, inter

alia'

Wells Fargo Bank, N.A., and the Gray Firm. (Kenosha County Case
No. 2OI1,CVI411) The defendants filed motions to dismiss in
response to the complaint. Attorney Nora appeared in Case No'
20I1,CVL411 at the end of August 207I.

Approximately one

week

her notice of appearance, At.torney Nora filed a
motion to dismiss Case No. 2}ILCVL477 without prejudice.
court, however, did not have a chance to
9145 The circuit
after

filing

rule on the pending motion to dismiss because on October 14,
2O:1I, Attorney Nora filed a bankruptcy petition on behalf of the
Rinaldis
District.

in the United States Bankruptcy CourL for the Eastern
of Wisconsin. HSBC filed a notice of claim regarding

the note and mortgage (and presumably the loan modification
Attorney Nora fil-ed an
agreement) signed by the Rinaldis.
objection to the bank's proof of cl-aim and then filed an
adversary action against, inter alia, HSBC, WeIls Fargo, the
Gray Firm (and certain of its lawyers), and the Litchfield Cavo
l-aw firm (and one of its lawyers who had appeared for wells
Fargo in Case No. 2011CV1471). In the objection, Attorney Nora
alleged that the note lacked consideration, t.hat two assignments
of the mortgage were null and void, that a third assignment of
21,

No.

and that

the mortgage was a forgery,

HSBC

was not the owner or

In the adversary action,

holder of the note.

20I5AP2442-D

Attorney Nora

alleged. claims of common law fraud, abuse of legal process'
violati-ons of the federal Fair Debt Collection Practices Act'
of the federal- Racketeering and Corrupt Practices
with
interference
and tortious
breach of contract,

violati-ons
Act,

prospecti-ve economic opportunity.
1t46 United States Bankruptcy Judge Susan Ke11ey rejected
t.he Rinaldis' obj ection to HSBC' s proof of claim, including
Attorney Nora's claj-m that the bank had produced a forged
endorsement of

t.he note and mortgage.

recommended that

the district

Judge KeIley

afso

courL dismiss the cl-aims alleged

Judge Kelley charactertzed some of the

in the adversary action.

claims asserted by Attorney Nora in both the objection and the
adversary proceeding as "frivolous" and "preposterous."
fl,4'7 Attorney Nora f il-ed

(

1) an appeal f rom Judge Kelley'

decision rejecting

the objection

(2)

to

an objection

s

to HSBC's proof of claim and

Judge KeIley's

recommendat.ion to

the

court to dismiss the adversary proceeding. The appeal
and objection were consolidated before United States District

district

Court Judge J. P. Stadtmuel-ler.
q4B Judge Stadtmuell-er issued a decision on October 3L'
2013, in which he affirmed Judge Kelley's dismissal- of the
to HSBC's proof of claim and adopted Judge KeJ-leyrs
proposed findings and conclusions regarding the dismissal of the
Judge Stadtmueller further held that
adversary proceeding.
objection

Attorney Nora had failed

to comply with the Federal Rul-es of
22

No.

201.5AP2442-D

He stated that the
Bankruptcy Procedure regarding appeals.
Rinaldis had "failed to provide a cogent statement of the issues
had

and

appeal"

on

provided

briefs

"that

are

largely

"an unfocused, stream-ofconsciousness-style recitation of general grievances t.he debtors
have asserted in various forms since the origination of this

unintell-igible"

litigation

and

that

were

He further

in state court. 'r

hel-d that any issues

regarding t.he assignment of the mortgaqe did noL affect HSBCTs
rights as holder of the Rinal-disr noLe. He described the claims
and
"generally meritless"
expressed concern that the Rinaldis were simply attemptj-ng to
stay the foreclosure of their home, meaning that t.heir claim of
abuse of process would apply more to them than to the lender and

in

the

adversary

proceedinq

as

Finally, Judge stadtmueller warned the
the other defendants.
Rinaldis (and Attorney Nora) "that they will find themselves in
very deep t.rouble if additional- meritless filings find their way
to

this

court

responsibility

(seeing as this

court

of dealing with their

has already

al-l--but.-f rivolous

in Case No. I2-CV-1055) and may very well result
sanctions.tt
g49 Attorney Nora filed
fact,

conclusions

of

law,

had the
f

ilings

in significant

a motion to amend the findings of
and judgment entered by Judge

Her motion alleged the same kind of arguments
to both the
that she had previously made in her filings
court, including that the
bankruptcy court and the district
On
mortgaqe had been fraudulently assiqned by wells Fargo.
StadtmueIIer.

December L3, 2013, Judqe Stadtmuel-ler issued an order denying
23

No.

2Q15AP2442-D

the motion, which stated that the Rinaldis had failed to
identify any manifest error of law or fact that would entitfe
them to relief under Fed. R. civ. Proc. 59 (e) and which
explicitly warned them (and Attorney Nora) that "any further
f rivol-ous submissions wil-1 result in an award of appropriate
sanctions against the Rinaldis' attorney'"
$50 on December 23, 2013, Attorney Nora filed a notice of

appeal from the orders issued by Judge Stadtmuel-ler' On
February :-7, 2014, she filed a motion to withdraw aS the
Rinaldis' counsel in al-l three of the applicable federal courts
(bankruptcy court, district court, and court of appeals) ' Judge
Ketley heard the moLion to withdraw on March 4' 2074, along wlth
a motion by the u. s. Trustee to dismiss the bankruptcy
proceeding due to the Rinaldis' failure to make payments ' Judge
Kelley dismissed the bankruptcy proceeding, but retained
jurisdiction over the sanction motion filed by the defendants in
the adversary proceeding. Judge Ke11ey also denied Attorney
Nora's motion for reconsideration of her opinion that dismissal
of the bankruptcy proceeding woufd mooL the appeal Attorney Nora
In that' motion for
had filed on behalf of the Rinaldis.
reconsj-deration, Attorney Nora essentially sought to dismiss the
adversary Proceeding.

gI5lonApriI2,20t4,AttorneyNorafiledamotionto
intervene personally in the Rinaldi case before Judge
j
stadtmueller . on t.hat same date, Attorney Nora f il-ed a oint
motion on behalf of hersel-f and the Rinaldis for relief under
Fed. R. civ. Proc. 60 (b) from Judge Stadtmuefl-er's prior orders'
24

No

20L5AP2442-D

The motion to intervene and the motion for relief under Rule
50 (b) repeated the same arguments Attorney Nora had been making
The
on behalf of the Rinal-dis.
in her prior filings
intervention motion al-so asserted that Attorney Nora had a right
to intervene personally to defend against the sancLion motion
filed by the defendants i-n the adversary proceeding.
1t52 On April 9, 201,4, Judge Stadtmueller issued an order
qlranting Attorney Nora's motion to withdraw and denying the
motions to intervene and for rel-ief under Rule 50 (b) . Judge
Stad.tmuell-er also sanctioned Attorney Nora for filing the latter

two motions:

Last, dS to Ms. Nora's motion to intervene and for
Rule 50 (b) relief, the Court notes that it has no
choice but to j-mpose sancLions against Ms . Nora. In
the Court's last order, rL noted that " [w] ith this
order, the Court hereby makes clear that any further
f rivol-ous submissions wil-l- result in an award of
appropriat.e sanctions against the RinaldisI atLorney-"
Despite
(Docket #37 at 3 (emphasis in original) ) .
that extremely clear warning, Ms. Nora filed the
frivolous motions in question. Therefore, the Court
will- enter a sanctions award aqainst her, using its
inherent authority to do so under Chambers v. Nasco
Inc., 501 U.S. 32 (1991). The Court will direct that
Ms . Nora pay t.o the Clerk of the Court $1, 000 . 00 f or
deposit into the Eastern District of Wisconsin Pro
Bono fund. And let the Court. be clear: any further
frivolous filings will resul-t in even higher sanctions
against Ms. Nora.
9153 The Seventh Circuit af f irmed Judge Stadtmuel-.Ler's
orders. It stated that to the extent the adversary claims were
not moot, it affirmed the orders dismissing the adversary
It
proceeding for the reasons stated by the district court.
also relied on an exception to the mootness doctrine that
25

No.

201'5AP2442-D

mootness should not be all-owed where the losing party causes

an

appeal to become moot in order to avoid the preclusive effect of
an unfavorable ruling. Tt characterized Attorney Norars attempt
to dismiss as a "type of gamesmanship" intended to deprive the
sound decisions of the bankruptcy courL and the district court

of preclusive effect. Finally, the Seventh circuit affirmed the
sanction award against Attorney Nora, stating that her
obligations to her clients did not excuse her disregard of the
district court's clear and repeated warnings against continued
submission of frivolous and needlessly argumentative filings '
$54 Like Count I, Count 4 aLleged that certain acLions
taken by Attorney Nora (specifically the filing of frivolous
motions to intervene personally and for relief from prior court
orders under Fed. R. civ. proc. 50 (b) (2)) in the Rinaldi matter
As with count t, the ref eree
had viol-ated scR 20:3. 1 (a) .
recommended that. this courL dismiss count 4 on the ground that
the lack of specification of the particular subsection of scR
20:3.]-(a)int'hesecond.amendedcomplaint'violatedAttorney
Norars due Process rights.
fl55 With respect to count 5, t.he referee concluded that
the oLR had sufficiently proven that Attorney Nora had violated
a frivolous motion to intervene and a
scR 2 O:3.2 by filing
frivol-ous motion for rel-ief under Rule 60 (b) in the district
court, after that court had warned her that further frivolous
submissions woul-d result in an award of sanctions.
REFEREE

'S

RECOMMENDATION RE GARDING DISCIPLINE

26

No.

20I5AP2442-D

1156 The OLR sought a one-year suspension of

Attorney

Nora's license to practice law in Wisconsin, comparing her
misconduct to the misconduct found to have been committed by
Attorney Joseph Sommers. See In re Disciplinary Proceedings
Against Sommers, 2012 WT 33, 339 Wis. 2d 580, 811 N.W.2d 387
(Sommers I); In re Disci I ina
Proceedin sA ainst Sommers,
20r4 wr 103, 358 Wis. 2d 248 | 851 N.W.2d 458 (Sommers II) . The
found

referee

" IAttorney]

i-ts

own.

comparison to

this

be

because

Nora's misconduct in thj-s case is on a fevel all of
Unlike

"

in

Sommers cases,

the

misconduct was not limited

to one particular

judge.

"Ii]t
faw in

Nora generalJ-y practices
disrespect.ful-

f

ashion" and that

disrespectful,

Attorney

a

hiqhly

she intentionally

and difficult

Nora's

case, court,

is clear that

The referee said that

offensive,

unhelpful

IAttorney]

offensive

and

acts in

an

manner in order to delay

the foreclosure proceedinqs against her cl-ients, which she
as doing her job for them.
9157 The referee

or

vj-ews

stated that Attorney Nora had shown

remorse for her conduct.

no

To the contrary, she bel-ieves that her

tactics

are appropriate in defending against forecl-osures at all

costs.

The referee twice stated that Att.orney Nora sees hersel-f

as a hero for actions in defending against forecfosures,
the courts fail
difference

to appreciate.

between a

professional misconduct.

vigorous

which

She does not understand the
and

zealous

defense

and

As an example, the referee pointed to

the "many false accusations" that Attorney Nora made against
The referee
Judge Potter, which she had failed to substantiate.
21

No.

20I5AP2442-D

based on his observation of Attorney Nora
d.uring this disciplinary proceeding, he bel-ieved that , Lf given
the chance, Attorney Nora would Continue to engage in the type
further

stated that,

of misconduct at issue in this proceeding. He noted that the
cases against her was
misconduct in the prior disciplinary
simil-ar to the misconduct found j-n this proceeding. In sum' the
referee concfuded that Attorney Nora "represents a serious and
ongoing threat. to the public, the judges before which she
appears, opposing counsel,
therefore

recommended that

and the
the court

legal

profession. "

He

suspend Attorney Nora's

license for a period of two years. He also recommended that the
reinstatement of her l-icense be conditioned "on good faith
by her to pay the tremendous costs incurred by the OLR
and the lawyers of Wisconsin in this disciplinary proceeding."

efforts

ATTORNEY NORAIS APPEAL

tl58 When we review a referee's report, we will- af firm a
refereers findings of fact unless they are found to be clearly
erroneous, but we review the referee's conclusions of law on a
In re Disci linary Proceeding.s Against Inglimo,
d.e novo basis.
2oo7 WI 1,26, 1I5, 305 Wis. 2d'.7L, 140 N.W.2d I25. We determine
the appropriate l-evel of discipl j-ne t.o j-mpose given the
particular facts of each case, independent of the referee's
from it.

recommendation, but benefiting

Proceedings Aqainst widul-e , 2oo3 wr

34

fn re DisciPlinary

, l'44, 26r wis ' 2d 45,

660

N.W.2d 686.

9 Attorney Norar s opening brief on her appeal l-ists 1B
separate issues (some with multiple subparts) that she would
tl5

2B

No.

20I5AP2442-D

A number of those issues or subissues, however' are not sufficientlY developed in AttorneY
Nora's brief, and we will not address them in this decision.
Parsons v. Associated Banc-CorP. , 20I-1 Wr 3f , 113 9 n. 8, 314 Wis '
l-ike this court to address.ll

2d,513, 893 N.W.2d 2r2!I60 The first group of arguments on appeal by Attorney
to
Nora allege due process viol-ations. She objects initially
the fact that the oLR included 11 4 proposed findings of fact
with cit.ations to the record in its post-hearing brief, arguing
that these statements were "new factual allegations" and that

the inclusion of them deprived her of due process before the
referee.

!I51 Attorney Nora contends that these "new factualallegations,,were improper because the oLR did not obt'ain a
Nora
With each of her three appellate briefs, Attorney
filed a set of requests asking this court to take judicial
notice of certain documents under Wis. Stat ' S 901 ' 01 (4) and
901. O 2 (2) (b) . The documents at issue, copies of which Att'orney
Nora appended to her requests, appear to be, for the most part,
filings from various underlying court proceedings. The oLR did
not object to this court taking judicial notice of the existence
and contents of the documents. AccordinglY, we take judicial
notice of the existence and of the contents of the requested
documents. We do not take judicial notice of the truth of any
not
statements incl-uded in those documents ' In additionr w€ do
their
in
Plan
13
take judicial notice of the Rinaldisr Chapter
bankruptcy proceeding because no such document was found as
of
Exhibit F to Attorney Nora's April 2, 20L9 second set we
brief'
requests for judicial notice in support of her reply
notice of the List of Nonpriority
also do not lare judicial
unsecured claims from Attorney Nora's personal bankruptcy
proceeding that was attached as Exhibit G to her ApriJ- 2, 201'9
That document is
second set of requests for judicial notice'
not refevant to Attorney Nora's reply brief '
11

29

No.

20I5AP2442-D

,,cause-to-proceedrr determination as to most of those facts from
a panel of the preliminary review committee (the PRC) under SCR
22.Lt (2) before

the evidentiary

hearing in

this

proceeding'

Attorney Nora apparently rel-ies on the lanquage in that rufe
which states that " It] he complaint shall set forth only those
for which the preliminary
facts and misconduct allegations
. ."
review panel determined there was cause to proceed
to mean that each
Attorney Nora reads this clause literally
complaint must be
of fact in a disciplinary
allegation
approved by t.he PRC. She then attempts to extend
the languaqe to require PRC approval of proposed findings of
fact in a post-hearing submission. She does not offer any case

specifically

law support for such an int.erpretation' nor does she analyze how
this languaqe from scR 22.LI (2) fits within the structure of the
disciplinary process described in SCR ch ' 22 '
q.52 Attorney Nora's argument is misplaced' The procedural
provisions in scR ch. 22 regarding the presentation of a matter
to a panel of the PRC do not require or even contemplate that
the PRC wil-l- make any f actua] determinations about the
The director is
informaLion submitted by the OLR's director'
required to submit to Lhe PRC panel t.he oLR ' s "investigative
reports, including atl relevant exculpatory and inculpatory
information obtained and appendices and exhibits, If any'" SCR
22.06 (1) .

The

does

PRC panel

not

make credibility

determinations or decide what the specific facts regarding the
matter are. What it does do is determine, given the inculpatory
and exculpatory information presented to it, whether there is
30

No.

pl-ausibte evidence for

sufficient

the OLR to proceed with

claim agai-nst the respondent attorney.

formal disciplinary
PRC

20L5AP2442-D

a

The

panel does not review a proposed complaint and approve or

disapprove specific

factual- allegations

in a complaint.

of cause to proceed by a

9163 Indeed, a finding

lead to the filing

does not automatically

of a disciplinary

of cause to proceed merely authorizes the

complaint.

A finding

OLR director

to "decide on the appropriat.e discipline
SCR 22.08(2).
to seek in the matter."

disposition

PRC panel

cases the direct.or will

or other
In

some

determine that the appropriate next step

is to file

a formal complaint in this court asking it

discipline

aqainst the respondent attorney.

to impose

SCR 22.08(2) (c).

Tn other words, the formal complaint can be drafted and fil-ed
the PRC panel has completed its

after

however, the director

In other cases,

authorj-zed to obtain the respondent

aqreement to a consensual- reprimand or t.o divert

attorney's
matter

is

work.

to

an

22.08 (2) (a)- (b)

alt.ernative

to

discipline

program.

the
SCR

.

1164 That the OLR is not bound to obtain approval of every

factual

allegation

in a complaint or every proposed finding

fact in a post-hearing brief
SCR 22.L1

(5)

authorizes

the

provided in the rul-es of civil
view were correct,

of

is demonstrated by the fact that.
OLR to

amend a complaint

procedure."

"as

If Attorney Norars

that subsection woul-d also need to state that

a complaint may be amended only if
the amended altegations.

a PRC panel first

approves

The rule does not, however, contain

any such requirement.
31

No.

20I5AP2442-D

1155 In any event, in this case a PRC panel made a cause-

to-proceed determination as to the five misconduct claims that
appear in alt three versions of the oLRrs complaint. The
amendments in both the first amended complaint and the second
amended complaint did not add entirely new instances of conduct
or new misconduct claims; they simply corrected some mistakes in

the factual allegations. Such amendments are clearly permitted
under SCR 2 2.IL (5) and do not require a second (or third)
approval by a PRC panel under scR 22.II (2) . Similarly, once a
pRC panel has found cause to proceed on claims that are
subsequently included in a formaf complaint, there is no
requirement in scR 22.L1 that the oLR obtain further approval of
any particular summary of fact.s from the evidence introduced in
the case or in any partlcular set of proposed findings of fact '
To the extent that the OLR was able to flesh out the factual
allegations of its second amended complaint by presenting
evidence at the evidentiary hearinq, that is entirely consistent
Tndeed, that is the normal course of
with due process.
proceedings in aII civil and criminal cases. Accordingly, the
oLR' s inclusion of proposed findings of fact in its post-hearing
brief did not violate SCR 22.LL (2) '
1166 Attorney Nora also argues that the incl-usion of the
"new" factual allegations in the oLR' s postL'T 4 allegedty
hearing brief violated her due process rights under In re
Ruffalo, 390 u.s. 544, 551 (1968). In that matter' however, t',he
u.s. Supreme court held that it was a violatj-on of due process
(the local bar
authorities
for the ohio disciplinary
32

No.

20L5AP2442-D

complaint during the
associatj-on) to amend their disciplinary
hearing and after the respondent attorney had
disciplinary
in order to allege an entirelY new claim of
testified
misconducL.T2 Id.

at 550-51.

That holding has no bearing

on

proceeding because the oLR never attempted to allege an
entirely new claim of misconduct in its amended complaints or in

this
its

post-hearing brief.

The five counts in the OLR's original
what conduct by Attorney Nora vj-olated

complaint identified
which rules of professional conduct.

Those five claims remained

the same in each of the OLR's amended complaints' The referee's
conclusions of law l-ikewise deLermine t.hat t.he same conduct by
Attorney Nora violated the same rufes that the OLR identified in

its complaints. There is no due process violat.ion under Ruffalo
in this proceeding.
q.51 Similarly, Attorney Nora alleges that the L] 4 "new
factual atlegations" in the oLR' s post-hearing brief constituted
I
a due process viol-ation under this court s decision in State v.
Hersh, 73 Wis. 2d, 390, 243 N.W.2d L7B (L916). In that case'
this court found no due process violation where, under a
previous attorney disciplinary regime, the Board of State Bar
commissioners was allowed to amend a complaint against a
respondent attorney to conform the complaint to the evidence
upon approval by a sufficient number of members of the board and
The aPPeal in Ruffalo actuallY arose out of a decision bY
the Sixth Circuit t<: disbar AttorneY Ruffalo from practicing in
that court, but the sixth circuit essentially rel-ied on theInohio
re
state disciplinary proceeding in reaching its decision'
(1968)
'
Ruffalo, 390 U.S. 544, 545, 541
1'2

33

No.

20I5AP2442-D

Attorney
hearing occurred'
an adjournment of the disciplinary
Nora points to a statement in that decision that a respondent
proceeding
due process rights in a disciplinary
attorney's
,,encompasSeS only Ithe attorney's]
right to prior noti-ce of
charges,It'heattorney's]righttopreparetodefendthese
charqes, and Ithe attorney's] right to a full- hearing on these
charges.,,

Id.

at 398.

We find

no violation

of these rights

arising out of the OLR's submission of proposed findings of fact
Attorney Nora fails to demonstrate
in a post-hearing brief.
that those proposed findings of fact materially changed the
nature of the allegat.ions against her or the ethical rul-es which
The five counts in each of
she was alleged to have violat.ed.
which remained consistent'
complaints,
the oLR's three
adequately advised Attorney Nora which of her actions had
she had
viol-ated which rules of professional- conduct.
notice of the charges to be able to prepare to defend
against those cl-aims. She was accorded a four-day hearing at
which to question the oLR' s witnesses and to present her own
Her due process rights were duly
testimony and exhibits.
sufficient

protected.
alleges that her due process
gl6s At.torney Nora briefly
right to prepare and present a defense was also violated by
These allegations are not
various rulings by the referee.
developed to warrant specifj-c responses ' Even Lf
sufficiently
we were to address them on the merits, we see no due process
violations as a result of the referee's orders. Attorney Nora
opportunity to conduct discovery, to name
had a sufficient
34

No.

20I5AP2442-D

witnesses, and to prepare and present a defense. Her failure to
avail herself of some of t.hose opportunities does not mean that
her due process rights were violated'
1169 The second group of arguments in Attorney Nora's
appeal is styled as a broad challenge to the referee'S factual
findings. Her arguments, however, challenge the referee'S legal
conclusions that she viol-ated scR 2O:3.2 in Counts 2 and 5 as

factual findings ' She
argues that under SCR 2023.2, the referee erred in concluding
that she had improperly detayed both the Spencer matter and the
Rinaldi matter. she contends that a lawyer can violate that

much as she challenges any particular

actions had no substantial purpose
other than to delay. since she alleges that she acted in good
in taking the actions she took, there could be no
faith
rule

only if

the lawyer's

concfusion of improper de1ay. Moreover, she argues that her
conduct did not actually result in delay of either the Spencer
matter or the Rinaldi matter'
gi70 Attorney Nora point.s to an American Bar Assocj-ation
comment to Model Rule 3.2 that the question under this rule is
whether a competent lawyer acting in good faith would regard the
course of action at issue as having some substantial purpose
other than de1ay. what Attorney Nora misses is that this
comment demonstrates that the pertinent question under the rule

is one of the lawyer's purpose or intent in pursuing the
action(s) at issue. Determining a person's intent requires a
referee to make an inference from the lawyer's actions and
statements under the circumstances ' See Welytok v Ziolkowski,
35

No.

20I5AP2442-D

2008 WI App 6'7, 1126, 3I2 Wis. 2d 435, 152 N.W.2d 359 (quoting

Pfeifer v. World Serv. Life Ins. Co., 72I Wis. 2d 56'7 ' 569, 360
N.W.2d 65 (Ct. App. l-984)). Here, the referee drew factual
inferences from the facts presented that Attorney Nora's purpose
in taking a number of specified actions was to delay the Spencer
To the extent that she
matter and the Rinal-di matter.
challenges these factual inferences on appeal, Attorney Nora
must show that. the referee t s inferences were clearly erroneous
(i. e. , that each inference was against the great. weight and
cfear preponderance of the evidence).

Phelps v. Physicians Ins.

Co. of Wisconsin, 2009 WI '74, 9139, 3f 9 Wis. 2d I, 768
515

N.W.2d

.

9171 Attorney Nora does not meet that high burden.

There

was ample evidence with respect to both the Spencer maLter and
the Rinaldi matter t.o support the referee's

determinati-on that

Attorney Nora I s purpose was to place whatever road blocks she
could construct j-n the path of concluding the varj-ous pieces of
Iitigation.
1t72 In the Spencer matter, AtLorney Nora made a host of
accusations aqainst Judge Potter, claiming that he and his court
staf f had engaged in mult j-ple ex part.e communications with
he had conducted "secret proceedings, "
and that he had been "collaborating" with opposing counsel and
opposing counsel, that

had been "compli-cit in the manipulation of the proceedings and
Court Judge Crabb
United States District
of the record. "
determined that Attorney Nora's subsequent attempt to remove the
case to federal court was not objectively
35

reasonabl-e.

Instead

No.

20I5AP2442-D

of accepting the district court ' s ruling' Attorney Nora twice
moved for reconsideration of Judge Crabb's remand order,
resulting in Judge Crabb finding that her reconsideration
requests were without basis and awarding costs and fees to the
Attorney Nora then prolonged the federal
opposing party.
proceedings by filing an appeal that the seventh circuit found
to be frivolous, ultimately resulting in an award of sanctions
against her.
$73 In the Rinatdi matLer, Attorney Nora attempted to drag
out the matter by raising objections and arguments that the
She then
federal bankruptcy judge characterized as frj-volous.
attempted to intervene personally and to move for relief under

Fed. R. civ. Proc. 50(b). The federal district court again
determined that Attorney Nora's moLions had been frivolous and
imposed. sanctions. On appeal the Seventh Circuit characterized
Attorney Nora's actions as "gamesmanshj-p" that it would not
permit, and it affirmed the imposition of sanctions due to
The referee's inferences of
Attorney Nora's frivol-ous filings.
a purpose of delay by Attorney Nora in both matters were not
clearly erroneous.
Il'14 Although it too falls within the portion of her
argument regarding a lack of evidence to support the referee's
factual findings, Attorney Nora's argument regarding count 3
(violation of the attorney's oath) is also more legal in nature
than an allegation that the referee's factual- findings were
clearly erroneous. She contends that her actions on beha]f of
Ms. Spencer arose from her constitutionally protected obligation
31

No.

201-5AP2442-D

as a lawyer to seek redress from the courts on behalf of her
client.

As this court already expl-ained in Nora Il,

lawyer's

fight

a

cause, however noble the lawyer

for a clientrs

to be, must be conducted within

might believe it

however,

the ethical-

Nora, 380 Wis. 2d 3LL, 9141. Attorney Nora has not

rules.

demonstrated any error

in the referee's

factual

findings

about

actions in the Spencer matter or in the

Attorney Nora's specific

determination that her actlons constitut.ed an ongoing
pattern of conduct to harass other parties and judicial- officers
referee's

and to delay t.he proceedings.

The Seventh Ci-rcuit's

description

of her conduct, quoted in paragraph 31 above, supports the
referee's
f indings

findings

in

regard.

this

The refereers

factual

that. At.torney Nora's actions were

and hj-s inference

intended to harass and to delay are not clearly

erroneous.

A

determination that Attorney Nora exceeded the bounds of ethical
advocacy by her conduct does not vi-ol-ate her or her clients'
constitutional-

rights

petition

to

the

branch of

:udicial

government for redress.
tl7

5 Att.orney Nora includes

allegations

a number of

that the referee erred in his evidentiary

misapplied burdens of proof,

1l'7

rulings,

These allegations

in
are

developed, and we need not address them here.

6 Having

concluded

arguments are without merit,
findings

general

and made unsupported findings

the discussion section of his report.
insufficiently

other

and agree with

his

that

Attorney

Nora' s

we accept the referee's
Iega1 concfusions that

3B

appellate
factual-

the

OLR

No.

proved the ethical violations alleged in counts 2,

its second

20I5AP2442-D

and 5 of

3,

amended comPlaint.

OLR'S CROSS'APPEAL

It-t'l We now turn to the OLR's cross-appeal of the dismissal
of Counts 1 and 4 on the ground that the versions of the OLR's
to provide adequate notice as to which
complaint failed
subsection of SCR 20:3.1(a) her conduct had violated.
start from the observation that from its original

Firstr

we

complaint'

through to its

the

specific

scR

second amended complaint, the OLR identified
actions by Attorney Nora that it alleged violated

In the Spencer maLter, the alleged misconduct was
removing the foreclosure action against Ms. Spencer to the
federal court with no colorable basis for federal jurisdiction
2023.1(a).

motions for

and then filing

frivolous

federal district

courtrs remand order.

reconsideration

of the

In the Rinaldi matter,

court
the alleged misconduct was filing in the federal district
a frivolous motion to intervene personally and a frivolous
motion for relief from prior orders under Fed. R' Civ' Proc'
60 (b)

.

ql7B Attorney

Nora therefore

knew the basis

for

those

counts from the very beginning of the proceeding. She litigated
against those counts before the referee for more than two years,
through motions to dismiss, through pretrial motions, through a
hearing, and through the filing of a postshe did note that
while in one early filing

four-day evidentiary
hearing brief.

paragraph 90) did not
count 4 of the complaint (specifically,
identify the subsections of SCR 20:3.1 (a) , she never alleged
39

No.

that the failure
constituted

to identify

a violation

201.5AP2442-D

the subsections of SCR 20:3.1

of her due process right

(a)

to notice of

Through the filing of her
the misconduct charges against her.
she never alleged that she was unable to
post-hearing brief,

defend against Count 1 and 4 because the OLR's complaints had
not specified which subsecti-on of SCR 20:3.1(a) her actions had
violated.
the

Had the referee not raised the issue sua sponte after

part. j-es

J-itigation

post-hearing

had concluded their

the

brief s,

of the case before the referee woul-d have concluded

with no such claim having been

made.

1l1g Under these factsr
any arqument that
forfeited

w€ conclude that

Attorney

Counts 1 and 4 of

Nora

the OLR's

The issue raised by
complaints violated her due process rights.
the referee is a question of notice in pleading. A respondent
party cannot iqnore an alleged defect' j-n pleading all the way

through the final
through

evidentiary

post-hearing

hearing (or trial)
and then

briefing,

of a case and

allege

complainant ' s cl-aim must be dismissed because it.

that

the

failed

to

provide adequate notice of the claim against the respondent.
permitting respondents t.o obtain dismissal of claims under those
circumstances would endorse "qotcha" tact.ics and would undermine
proceeding or any other
the orderly conduct of a disciplinary
The prejudice of such a ruling is evident here.
civil action.
Because the alleged error

by the OLR was one of pleading,

it

could have been easily remedied through the filing of an amended
complaint if Attorney Nora had alleged a due process violation
at any point

during the actua] litigation
40

of the case.

By

No.

the

case through

the

litigating

alleged deficiency

in its

hearing,

evidentiary

prevented the OLR from having an opportunity

201-5AP2442-D

she

to remedy any

Moreover, the fact that

complaint.

defended against Counts I and 4 aL the evidentiary

she actually

notice

hearing undercuts an assertion that she Iacked sufficient
to prepare a defense on those counts.
1180 fn

addition,

the fact. that

the referee

ultimately

raised the issue does not affect this analysis. Att.orney Norars
failure to raise the j-ssue through t.he evidentiary hearing and
post-hearing briefing

still

meant that her conduct in litigating

the case through the evident.iary hearing' prevented the OLR from
amending those counts and obtaining a decision on their

merits,

whether or not t.he referee subsequently raised the issue.
referee's

raising of the issue after the evident.iary hearing
prevented the OLR from correcting

complete still

pleading deficiency.

The
was

an alleged

Accordingl-y, we conclude that under these

circumstances Counts l- and 4 should not be dismissed based on
claimed due process violation

that

was clearly

forfeited

a

by

Attorney Nora.
9lB1 The referee concluded that,

rf this court rejected his

recommended dismissal of Counts 1 and 4 on due process grounds,

the OLR did prove in each of those two counts that Attorney Nora
had violated
evidence.

SCR

We

2023.1(a) by clear, satisfactory

agree with those concl-usions

and convincing

.

APPROPRIATE LEVEL OF DISCIPLINE

1182 Having determined that

Attorney

professionaf misconduct as alleged in all
4I

Nora engaged
five

l_n

counts of the

No.

2015AP2442-D

complaint, we Lurn to the issue of the appropriate levelIn assessing what is the proper level- of
of discipline.
discipline to impose, w€ consider various factors, including:
" (1) the seriousness, nature and extent of the misconduct'' (2)
the leveI of discipline needed to protect the public, the
amended.

courts, and the 1egal system from repetition of the attorneyrs
misconduct; (3) the need to impress upon the attorney the
seriousness of the misconduct; and (4) t.he need to deter other
Tn re
attorneys from committing similar misconduct. rr
Discip linarv Proceedinqs Against Carroll- , 200L WI 130 , gl4 0, 248
Wis. 2d 662, 535 N.W.2d 718.
glB3 It. cannot reasonably be disputed that Attorney Nora's
as
she criticizes
Although
serious.
misconduct is
"inflammatory" the referee's description of the tactics she
I
used., we view them as f air comments on Attorney Nora s actj-ons .
Quite simply, she has repeatedly abused the legal system to
pursue her agenda of delaying foreclosure actions by any

means

possible.
ql84 This is not an isolated incj-dent of a lawyer allowing
the 1awyer's zeaL in the heat of battle t.o overcome the lawyer's
better judgment.

This is now the third

time that Attorney Nora

is being disciplined for similar conduct. In just Nora II
this case, she has been found to have fil-ed frivolous
taken frivol-ous positions in five separate actions.

and

cfaims or
clearly,

there is a lengthy pattern of similar misconduct. She has been
sanctioned multiple times in multiple courts for her frivol-ous
filings

.

42

No.

9185 Her misconduct does pose a

real

threat

201,5AP2442-D

to

the

Not only has she improperly used the

administratj-on of justice.

system to delay the completion of civil
actions, she has repeatedly attacked the other participants in
with claims of
those actions (judges, lawyers, and litigants)
tools

of the legal

she alleged that Judge
unethical or even criminal conduct.
potter had abandoned his role as a neutraf magistrate to
manipulate the record and to coll-ude with opposing counsel to
reach a corrupt result.

She accused Judge Crabb of engaging in

She accused the
a personal campaign of libel against her.
judges of the Seventh Circuit of being biased against. the rights
of homeowners. Not only was she unwilting to accept the rulings
of these judicial
their

rulings

officers

after

and therefore

the fact,

repeatedly challenged

she labefed those judges who did

as being biased and unethical.
Lawyers do not have to agree wit.h a j udge ' s rulings, but the
legal system cannot function properly and maj-ntain the necessary

not

accede to

her tactics

respect in the eyes of the public if lawyers baselessly attack
the integrity of the individuals who preside in our courts.
ql8d The referee found that Attorney Nora had not expressed
any real remorse for her conduct throughout the proceedings
this case
Rather, her conduct in litigating
before him.
demonstrated that she continued to believe her win-at-all-costs
He found that if
approach in foreclosure cases was justified.
she again hel-d a val-id license to practice 1aw, she would not
In part, he reached
hesitate to use the same improper tactics.
chance
this conclusion because he bel-ieved that there was little
43

No.

20L5AP2442-D

that Attorney Nora will ever understand why her actions were
Further, his
wrong and what damage her misconduct had caused.
was supported by the fact that during this disciplinary
proceeding, Attorney Nora had reached into the same playbook'

belief

and attorneys actj-ng on behalf of the
OLR of being biased and having engaged in serious professionalmisconduct, even in crj-minal- activities.
accusing the investigators

g87 During oral argument before this court, Attorney Nora
did acknowl-edge, to a fimited deqree, that she had crossed an
She admitt.ed that she had been overzealous at
ethical line.
times and had shown an offensive personality in some of her
but she indicated that her fault had been in the
filings,
incorrect manner in which she had articulated her positions.
Attorney Nora did not show that she accepted and admitted that
the actuaf positions and actions she took were improper, even
though multiple

courts had found multiple

her t.o be frivolous

filings

submitted by

and had imposed sanctions on her.

liBB C1ear1y, given her arguments Lo this court' Attorney
Nora retains the same zeaL for her cause of fighting against
While we
residential property fenders and mortgage holders.
she has now made some show of acknowledging a
for her conduct, we share the referee's
responsibility

recognize that
limited

Nora has not grasped or accepted the
extent of her misconduct and that, dL this point, she would be
hiqhly likely to repeat that misconduct if she held a val-id
We therefore conclude that a
l-icense to practice 1aw.
concern that

substantial

Attorney

period of suspension is necessary to impress upon
44

No.

2075AP2442-D

her the seriousness of her misconduct and to protect the public,
the courts, and the lega1 system from a repetition of that
misconduct.

Attorney Nora's
commented that
il89 The referee
professional misconduct "is at a level al-l- of its own' not
previously Seen in any Wisconsi-n disciplinary caseS. I' That
observation seems, in our view, to be somewhat of an
overstaLement. For example, we revoked the license of Attorney
Al-an Eisenberg when he not only commenced and continued a
frivol-ous claim to harass an opposing party, but repeatedly made
misrepresentations to damage the reputation of an opposing party
In re
and to gain leverage in a pending di-vorce action.
Discip linarv Proceedings Ag ainst. Eisenberg, 2070 WI II, 322 Wis.
2d, 518, 118 N.W.2d 645. While Attorney Nora's misconduct does
share some simil-ar traits with Attorney Eisenberg's misconduct,
his prior disciplinary history and the culpability of his
actions exceed those of Attorney Nora. We therefore do not
bel-ieve that a revocation of her license is necessary or
appropriate.
5190 On the other hand, we agree with the referee that the

analogy to the suspensions imposed on Attorney
John Widufe and Attorney Joseph Sommers is i-nadequate. The
Sommers f case, in which we imposed a 30-day suspension invol-ved
unusuaf mitigating factors and is particularly inapt, both
factually and legal1y. The Widule case'13 in which we imposed a

OLR's initlal

34,

13 In re Disciplinary
Proceedings
2d 68 5 .
N.
W.
251, Wis . 2d 45 , 660
45

Aqainst

Widul-e

, 2003

WI

No.

20L5AP2442-D

six-month suspension did j-nvolve similar conduct in commenci-ng
and continuing a frivolous action, but that matter is also
Attorney Widulers misconduct was
factually distinguishable.
limited to one client representation and he had no prior record

This is now the third
of receivinq public discipline.
disciplinary proceeding against Attorney Nora, and it invol-ves
the fourth and fifth actions in which Attorney Nora took
At.torney Norars professi-onal misconduct
f rivolous positions.
warrants a significantly higher level of discipline than the
six-month suspensi-on we imposed on Attorney Widule.
jI91 In addition, t.his court has generally foflowed a
In re Disciplinary
practice of imposing progressive discipline.
Proceedings Aqainst Netzer , 2014 WI J , 1[49 , 352 Wis . 2d 310, 841
N.W.2d 820 ("This courL has long adhered to the concept of
progressive discipllne

in at.torney requlatory

cases.");

In re

DisciplinarV Proceedings Against Nussberger 2006 wr LLr, fl.21 ,
we have frequently
296 Wis. 2d 4l , 1I9 N.W.2d 501 (".
followed t.he concepL of progressive discipline, especially in
The
cases involving a pattern of similar misconduct. " ) .
misconduct in this case is simi]ar in nature to the misconduct

found in Nora II, where we imposed a one-year suspension. A
longer suspension is appropriate here.
1192 Having considered al-f of the factors discussed above,
we conclude that a two-year suspension of Attorney Nora's
license to practice l-aw in Wisconsin is necessary to impress
upon her the seriousness of her misconduct and to protect the
46

No.

courts and the 1egal system from a repetition

20I5AP2442-D

of

that

misconduct.

his report t.he referee commented that he
reCommended a two-year suspension, "conSecutive to any current
HiS report, however, was issued while Attorney
suspensions. "
If
Nora was serving t.he one-year suspension imp osed in Nora II.
this case had concluded whil-e that one-year suspension remained
in effect, it would have been logical to begin the current
suspension foll-owing the completion of the prior suspension.
g.g4 Generally, disciplinary suspensions imposed by this
court are prospective-i.e., t.hey commence at the time that the
suspension is imposed or within a few weeks thereafter '
Commencing the two-year suspension imposed in this proceeding as
tl93 In

of April 30, 2019, when the one-year suspe nsion from Nora II
expired, would make the current suspension retroactive.
"Generally, a retroactive suspension is disfavored in the
In re Disciplinary
absence of some compelling circumsLance. rf
Proceedinss Asainst Woods, 20L1" WI 46, fl2, 334 Wis' 2d 324, 800
N.W.2dB75(citationomitted).Wefindnocompelling
circumstance here that would warrant beginnlng the current twoyear suspension more than one year ago.
9195 We do, however' recoqn:.-ze that the COVID-19 pandemic
and the attendant matters that have consumed the court over the
last several months have impacted the timi-ng of this deci-sion.
We therefore conclude that it is appropriate to make the twoyear suspension effective

as of April L, 2020'

4'7

No.

2QL5AP2442-D

1196 The referee also recommended that this court condition

the reinstatement of Attorney Nora's license on "good faith
efforts by her to pay the tremendous costs incurred by the OLR
and the lawyers of Wisconsin in this disciplinary proceeding."
We do not impose thls condition. First, such a condition would
ordinarily be unnecessary because a lawyer's rei-nstatement
petition from a suspension of six months or more must show that
the lawyer has fully complied with the terms of the suspension
order, which woul-d ordinarlly include a requirement that the
lawyer pay the costs of the disciplinary proceeding. See SCR
Further, the condition is not necessary in this
22.29(4) (c).
case because, dS discussed below, we are not ordering Attorney
Nora to pay the costs of this proceeding pursuant to the OLR's
request.
9197 We do, however, determine that it

is necessary

and

appropriate t.o impose a different condition on any reinstatement
A number of courts
proceeding that Attorney Nora may initiate.
have imposed monetary sanctions on her individually as a result
of her filing frivolous documents. Paying those monetary
sanctions j-s an appropriate way for Attorney Nora to demonstrate
for her acLions.
that she has accepted responsibility
Consequently, we require as a condition of reinstatement that
any reinstatement petition filed by Attorney Nora (1) identify
each monetary sanction amount that has been i-mposed on her by

any court and that is outstanding as of the date of this
decision and (2) allege that she has made a good faith effort to
pay all such sanction amounts. She must then prove during the
4B

No.

20L5AP2442-D

reinstatement proceedings before the referee that she has made
good faith effort to pay all of the sanction amounts identified
conditions will

of Attorney Nora to meet these

The failure

in her petition.

be sufficient

grounds for the dismissal of her

reinstatement Petition .
il98 The OLR does not
Attorney
retaining

request

that

funds

any restitution

issue

misconduct at

Norafs

a

shoul-d

be

did

not

delivered

award.

invol-ve her
to

others.

Consequently, we do not include restitution in our order.
$99 Finally, we turn to the issue of costs. Attorney Nora
filed

to the OLR's statement of costs and to the
recommendation regardinq costs, based in part on the

an objection

referee's

with

fact that the OLR did not provide an itemization initially
its statement of costs and the referee submitted his
recommendation before Attorney Nora filed

her objection.

cost

After

oral argument, we issued an order that directed the OLR to file
a supplemental statement of appellate costs with an attached
of costs and that permitted Attorney Nora to

full

itemization

file

a new, comprehensive objection.
$100 One of Attorney Nora's objections

to a cost award

was

that she has been pursuing a personal bankrupt.cy proceeding in
the United States Bankruptcy Court for the District of Minnesota
(the Minnesota bankruptcy court).

On June 15, 2020, the

OLR

fil-ed a Revised Recommendation Regarding Costs. It noted that
the Minnesota bankruptcy court had recently issued a discharge
It requested that the court not

in bankruptcy to Attorney Nora.
49

No.

order Attorney Nora t.o pay the costs of this

201,5AP2442-D

disciplinary

proceeding.
$101 Under the particular

circumstances of this matter

and

i-n light of the OLR's request, we will- not require Attorney Nora
to pay the costs of this disciplinary proceeding.ta
fl,I02 IT IS ORDERED that the l-icense of Wendy Alison Nora to
practice law in Wisconsin is suspended for a period of two

years, effective APriI 1, 2020.
91103 IT IS FURTHER ORDERED, that. as a condition of
reinstatement, dnY petition seeking reinstatement from the
l-icense suspensj-on imposed in this proceeding must (1) identify
each monetary sancLion amount that has been imposed on her
individually by any court and that is outstanding as of the date
of this decision and (2) allege that she has made a good faith
ef fort to pay al-l such sanct j-on amounts. In addition, Attorney
Nora must prove during the reinstatement proceedings before the
referee that she has made a good faith effort to pay all- of the
sanction amounts identified in her petition.
gll-04 IT IS FURTHER ORDERED that no costs sha1l be imposed
upon Wendy Alison Nora in this proceeding.

that. the administrative
suspension of Wendy Al-ison Nora's license to practice law in
Wisconsin, due to her failure to pay mandatory bar dues and her
faifure to file a trust account certification, will- remain in
q105 IT

IS

FURTHER ORDERED

The oLR' s supplemental statement of costs indicated that
the costs of this proceeding were $94,991 .97 .
1'4

50

No.

20L5AP2442-D

effect until- each reason for the administrative suspension has
been rectified pursuant to SCR 22.28(1).
gI105 IT fS FURTHER ORDERED that Wendy Alison Nora shal-l
comply with the provisions of SCR 22.25 concerning the duties of
a person whose license to practice 1aw in Wisconsin has been
suspended.

IT IS FURTHER ORDERED that compliance with al-l
conditions of this order is required for reinstatement from the
suspension imposed herein. See SCR 22-28(3) .
gl1o7

51

